                                                U.S. DEPARTMENT OF
                               HOUSING AND URBAN DEVELOPMENT
                                        OFFICE OF INSPECTOR GENERAL




                                             November 6, 2012
                                                                                             MEMORANDUM NO:
                                                                                             2013-DP-0801




Memorandum
TO:            Jerry E. Williams, Chief Information Officer, Q
               Karen Newton Cole, Acting Chief Human Capital Officer, A


FROM:          Hanh Do, Director, Information Systems Audit Division, GAA


SUBJECT:       Improper Release of Personally Identifiable Information



                                           INTRODUCTION
A breach of personally identifiable information (PII) occurred on September 21, 2012, in which
an employee from the Office of the Chief Human Capital Officer emailed 8,444 U.S. Department
of Housing and Urban Development (HUD) employees an Excel file that contained employees’
full names and Social Security numbers. We determined that HUD responded to the incident
properly, following United States Computer Emergency Readiness Team (US-CERT), National
Institute of Standards and Technology, and HUD policy and other Federal requirements.
However, we noted some areas of concern for safeguarding HUD information as well as
suggested improvements for limiting the exposure of HUD’s information in the future.

                                METHODOLOGY AND SCOPE
The Office of Inspector General (OIG) was notified of a PII incident on September 24th. We
performed a review to determine whether HUD followed proper policies and procedures in
responding to the breach of PII. Specifically, for this incident, we identified what actions were
taken and any deficiencies within HUD policies, plans, or current practices. We performed this
review at HUD headquarters from September 28th-October 19th. We interviewed members of
HUD’s Breach Notification Response Team who were directly involved in the identification and
corrective actions associated with this incident. Interviewees included the senior agency official
for privacy, Chief Information Officer, Deputy Chief Information Officer, privacy officer, data
center services director, chief information security officer, OIG representative, and Chief Human
Capital Officer (manager of the program experiencing the breach).

                               Office of Audit (Information Systems Audit Division)
                                451 7th Street S.W., Room 8174, Washington, DC 20410
                                      Phone (202) 402-0344, Fax (202) 401-1578
                           Visit the Office of Inspector General Website at www.hudoig.gov
bcc:
G       Montoya         8256
G       Albert          8256
G       Chron           8256
GA      Rokosz          8286
GA      Chron           8286
GAA     Do              8174
GAA     Bagley          8174
GAA     Bardak          8174
GAA     Chron            8174


Concurrence:

Admin          Bardak    Bagley   Do   Rokosz   Albert   Montoya




                                   5
